No. 20A99
IN THE SUPREME COURT OF THE UNITED STATES
_________________
IN RE FEDERAL BUREAU OF PRISONS’ EXECUTION PROTOCOL CASES
ORLANDO CORDIA HALL AND BRANDON BERNARD, APPLICANTS
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the RESPONSE IN OPPOSITION TO EMERGENCY APPLICATION FOR STAYS OF
EXECUTION, via email and first-class mail, postage prepaid, this 19th day of November, 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 19, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20A99
ORLANDO CORDIA HALL AND BRANDON BERNARD
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVENUE, NW
SUITE 500E
WASHINGTON, DC 20001-5369
GINGER.ANDERS@MTO.COM

